                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 113060038                                                                            Page 1 of 1




                An investigation was opened1 into an NSF employee2 for potential misuse of a Government
         purchase card. 3 Through interviews4 and a review of documentation5 it has been determined that no
         misuse took place. 6

                   This case is closed with no further action taken.




          Pre-approvals and monthly reconciliation of the purchase card statements for FY' 11, FY' 12 and FY' 13.
         6
          The questionable purchase a t - Garden Center was for official purposes and had the proper pre-approval
         and reconciliation receipt.




NSF OIG Form 2 (11/02)
